No. 20-17

IN THE
SUPREME COURT OF THE UNITED STATES
WADE ANTHONY ROBERTSON,
Petitioner,
v.

RICHARD HONN, et. al,
Respondents.
Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
PROOF OF SERVICE

I, Wade Robertson, do swear or declare that on this date, October 30, 2020,
as required by Supreme Court Rule 29 I have served the enclosed
“PETITION FOR REHEARING”
on each party to the above proceeding or that party’s counsel, and on every other
person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with
first-class postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days.
The names and addresses of those served are as follows:
Page 1 of 3

Robert G. Retana, Esq. &
Suzanne Grandt, Esq.
Assistant General Counsel
OFFICE OF GENERAL COUNSEL
THE STATE BAR OF CALIFORNIA
180 Howard Street
San Francisco, CA 94105-1639
phone: 415-538-2388
Counsel for the following parties:
RICHARD A. HONN, (in his official capacity only);
CATHERINE D. PURCELL, (in her official capacity only);
JUDITH A. EPSTEIN, (in her official capacity only;)
LUCYARMENDARIZ, (in her official capacity only);
JAMES P. FOX, (in his official capacity only;)
DANETTE E. MEYERS, (in her official capacity only);
JANET L. BREWER, (in her official capacity only);
MARK BROUGHTON, (in his official capacity only);
MICHAEL COLANTUONO, (in his official capacity only);
GLENDA CORCORAN, (in her official capacity only);
TERRANCE W. FLANIGAN, (in his official capacity only);
RENEE LABRAN, (in her official capacity only);
JASON PANG FE LEE, (in his official capacity only);
JOANNA MENDOZA, (in her official capacity only);
RICHARD RAMIREZ, (in his official capacity only);
SEANM. SELEGUE, (in his official capacity only);
STACIE SPECTOR, (in her official capacity only);
BRANDON N. STALLINGS, (in his official capacity only);
ALAN STEINBRECHER, (in his official capacity only);
TODD F. STEVENS, (in his official capacity only);
GREGORY DRESSER, (in his official capacity only);
CYDNEY BATCHELOR, (in her official capacity only);
SHERRIE B. MCLETCHIE, (in her official capacity only);
ROBERT A. HENDERSON, (in his official capacity only);
ESTHER ROGERS, (in her official capacity only);
ELIZABETH RINDSKOPF PARKER, (in her official capacity only);
REBECCA FARMER, (in her official capacity only);
LAURA ERNDE, (in her official capacity only);

Jose A. Zelidon-Zepeda, Esq.
Deputy Attorney General
455 Golden Gate Ave. Ste. 11000
San Francisco, CA 94102
phone: 415-703-5781;
Counsel for the following parties:
Page 2 of 3

TANIGORRE CANTIL-SAKAUYE, (in her official capacity only);
KATHRYNM. WERDEGAR, (in her official capacity only);
MING W. CHIN, (in his official capacity only);
CAROL A. CORRIGAN, (in her official capacity only);
GOODWIN H. LIU, (in his official capacity only);
MARIANO-FLORENTINO CUELLAR, (in his official capacity only);
LEONDRA R. KRUGER, (in her official capacity only);

Marlon Paz, Esq.
Mayer Brown
1999 K Street, NW
Washington, DC 20006-1101
phone: 202 263 3044
Counsel for the following parties:
WALLACE E. SHIPP, JR, (in his official capacity only);
H. CLAY SMITH, III, (in his official capacity only);

Mark G. Bonino,Esq.
Hayes, Scott, Bonino, Ellingson, Guslani,
Simonson & Clause, LLP
999 Skyway Road
Suite 310
San Carlos, CA 94070
phone: 650.486.2869
Counsel for the followins parties:
WILLIAM C. CARTINHOUR, JR., (in his personal capacity only).

I declare (or certify, verify, or state) under penalty of perjury under the laws
of the United States of America that the foregoing is true and correct.

Dated: October 30, 2020

By:
Wade Robertson

Page 3 of 3

